Executive Digest



Return to the USDOJ/OIG Home Page



Albuquerque Police Department Forensic DNA Laboratory Improvement Grants
GR-80-00-001
October 13, 1999

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Forensic DNA Laboratory Improvement Program Grants, No. 96-IJ-CX-0039 and No. 98?DN-VX-0009, awarded to the Albuquerque, New Mexico, Police Department.  The $290,000 and $141,979 grants were awarded by the Office of Justice Programs on September 30, 1996, and April 24,1998, respectively.  Our audit covered the period of October 1, 1996, through June 30, 1999.

We found that Albuquerque generally complied with grant requirements.  Specifically we found that:


Costs charged to the grants were allowable and in accordance with grant requirements.
	Local match requirements were met.
	Financial reports were not accurate and were not always submitted timely; however, progress reports were accurate and submitted timely.
	Program activities outlined in the grant application to meet the objectives of the grants had been implemented.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in Appendix I.